                                    SOCIAL        SECURITY
                                    Officeof the InspectorGeneral
MEMORANDUM
Date:   March   30,   2001                                                 Refer To:
        Larry G. Massanari
To:     Acting Commissioner

         of Social    Security

From:   Inspector General


        Payments to Young Spouses and Surviving Spouses Without Child In-Care
        (A-09-00-1 0002)


        The attached final report presents the results of our audit. Our objective was to
        determine whether ~he Social Security Administration paid benefits to young spouses
        and surviving spouses without a child in-care under age 16 or a disabled child in-care
        age 16 or over.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.

                                                                                  /



                                                        James G. Huse, Jr.



         Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




   PAYMENTS TO YOUNG SPOUSES
     AND SURVIVING SPOUSES
     WITHOUT CHILD IN-CARE

    March 2001   A-09-00-10002




AUDIT REPORT

                                      Executive Summary

OBJECTIVE

The objective of the audit was to determine whether the Social Security Administration
(SSA) paid benefits to young spouses and surviving spouses without a child in-care
under age 16 or a disabled child in-care age 16 or over.

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance program under title II
of the Social Security Act (Act). The Act provides benefits to certain spouses, surviving
spouses, and divorced spouses of retired or disabled workers. Spouses are eligible for
benefits if they are age 62 or older. Spouses under age 62 (young spouses) qualify for
benefits if they have in their care an eligible child who is either under age 16 or
disabled.

Surviving spouses are eligible for benefits if they are either age 60 or older, or age 50
or older and disabled. Other surviving spouses (young surviving spouses) qualify for
benefits if they have in their care an eligible child who is either under age
16 or disabled. Divorced spouses, when married to a retired or disabled worker for at
least 10 years immediately before the divorce, may also qualify for benefits.

SSA relies on its automated system to identify and terminate benefit payments to young
spouses and surviving spouses without a child in-care under age 16 or a disabled child
in-care age 16 or over. This system uses current information from SSA’s beneficiary
records to monitor entitlement to benefits and process termination actions. In most
cases, these actions are processed automatically. However, for complex cases, the
automated system is programmed to generate alerts and exceptions rather than
terminate benefits. Actions that are partially processed by SSA’s automated system
result in alerts while those that cannot be processed at all result in exceptions. Both
alerts and exceptions require manual processing to complete the actions.

RESULTS OF REVIEW
Our audit disclosed that, as of August 1999, 357 (91.1 percent) in our population of 392
young spouses and surviving spouses did not have a child in-care under
age 16 or a disabled child in-care age 16 or over. These individuals were ineligible
for Social Security benefits under the Act. We determined that SSA had improperly
paid benefits totaling $406,194 to these individuals. The remaining 35 individuals
(8.9 percent) represented young spouses and surviving spouses who should not have
been included in our population because their beneficiary status had been misclassified.
These individuals were entitled to benefits because they were disabled, had a child
in-care, or reached age 60 (for example, aged widow).


Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)       i
The 357 young spouses and surviving spouses received $406,194 in Social Security
benefits to which they were not entitled, because SSA had not programmed its
automated system to terminate benefits for these individuals, and processing center
(PC) employees did not manually process the termination actions in a timely manner.
As of August 2000, we determined 147 individuals received $292,125 in overpayments
that should have been recovered by SSA. These cases were referred to SSA for
corrective action. The remaining 210 individuals received $114,069 in overpayments
which should have been offset against underpayments due other individuals in the
same family.

CONCLUSIONS AND RECOMMENDATIONS

SSA informed us that it is currently in the process of redesigning its automated system.
Although SSA’s automated system identifies young spouses and surviving spouses
without a child in-care under age 16 or a disabled child in-care age 16 or over, it is not
programmed to terminate benefits to all of these individuals. Because of shifting
workload priorities, SSA should not rely on PC employees to manually process
termination actions in a timely manner. Such actions should be processed by SSA’s
automated system, thereby reducing the amount of overpayments to ineligible
beneficiaries. Therefore, we recommend that SSA:

�	 Modify its automated system to terminate benefits to young spouses and surviving
   spouses without a child in-care under age 16 or a disabled child in-care age 16 or
   over.

�	 Generate alerts for PC employees to review complex cases, recalculate benefit
   amounts, and adjust payments due other individuals in the same family, if
   necessary.

�	 Evaluate the feasibility of automating benefit increases for other individuals in the
   same family when the benefits for young spouses and surviving spouses without a
   child in-care are terminated.

�	 For the 147 cases identified by our audit, take corrective action to ensure that
   overpayments are established and collection activities are initiated.

AGENCY COMMENTS

In its response, SSA generally agreed with our recommendations. SSA agreed that
benefits should be terminated timely for all young spouses and surviving spouses
without a child in-care either under age 16 or disabled and age 16 or over. SSA stated
that release 3 of title II Redesign will replace its existing programs for processing these
cases and address the efficiencies cited in our report. Release 3 is scheduled for
implementation by the end of calendar year 2002. SSA also stated that it is not
cost-effective to redirect resources from title II Redesign to modify its existing programs.


Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)        ii
We agree and encourage SSA to expedite its implementation of title II Redesign to the
extent possible.

In addition, SSA stated that its Office of Operations had reviewed the 147 cases
identified by our audit and taken corrective action to ensure that overpayments were
established and collection activities were initiated. The full text of SSA’s comments is
included in AppendixA.

OIG RESPONSE
SSA’s planned actions adequately address all of our recommendations.




Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)      iii
                                                                Table of Contents

                                                                                                                         Page


INTRODUCTION .................................................................................................................1


RESULTS OF REVIEW .....................................................................................................4


Incorrect Payments to Young Spouses and Surviving Spouses..................................4


     �    Delays in Manual Processing of Termination Actions .......................................5

     �    SSA’s Automated System Could Be Improved...................................................7


CONCLUSIONS AND RECOMMENDATIONS .............................................................9


APPENDICES

APPENDIX A – Agency Comments

APPENDIX B – OIG Contacts and Staff Acknowledgments




Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)
                                                                 Acronyms

 Act              The Social Security Act

 MBR              Master Beneficiary Record

 OASDI            Old-Age, Survivors and Disability Insurance

 ODIO             Office of Disability and International Operations

 OIG              Office of the Inspector General

 OMB              Office of Management and Budget

 PC               Processing Center

 PSC              Program Service Center

 SSA              Social Security Administration





Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)
                                                                        Introduction

OBJECTIVE

The objective of the audit was to determine whether the Social Security Administration
(SSA) paid benefits to young spouses and surviving spouses without a child in-care
under age 16 or a disabled child in-care age 16 or over.

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
under title II of the Social Security Act (Act). The Act provides benefits to certain
spouses, surviving spouses, and divorced spouses of retired or disabled workers.1
Spouses are eligible for benefits if they are age 62 or older. Spouses under age 62
(young spouses) qualify for benefits if they have in their care an eligible child who
is either under age 16 or disabled.

Surviving spouses are eligible for benefits if they are either age 60 or older, or age 50
or older and disabled. Other surviving spouses (young surviving spouses) qualify for
benefits if they have in their care an eligible child who is either under age 16 or
disabled. Divorced spouses, when married to a retired or disabled worker for at least
10 years immediately before the divorce, may also qualify for benefits.

SSA relies on its automated system to identify and terminate benefit payments to young
spouses and surviving spouses without a child in-care under age 16 or a disabled child
in-care age 16 or over. This system uses current information from SSA’s beneficiary
records to monitor entitlement to benefits and process termination actions. In most
cases, these actions are processed automatically. However, for complex cases, the
automated system is programmed to generate alerts and exceptions rather than
terminate benefits. Actions that are partially processed by SSA’s automated system
result in alerts while those that cannot be processed at all result in exceptions. Both
alerts and exceptions require manual processing to complete the actions.

      SSA Processed          During Calendar Year 1998, SSA processed a total of
     67,209 Termination      67,209 termination actions for spouses and surviving
      Actions in 1998        spouses whose last nondisabled child reached age 16.2
                             This amount included 30,181 termination actions for
spouses and 37,028 termination actions for surviving spouses. For 95 percent of
these individuals, SSA’s automated system terminated their benefits when the last
nondisabled child reached age 16. For the remaining 5 percent, the automated system

1
    20 C.F.R. §§ 404.330, 404.331, 404.335, and 404.339.
2
    Annual Statistical Supplement, 1999 to the Social Security Bulletin, table 6.F2.


Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)       1
generated exceptions, which allowed the individuals to receive benefits until the
exceptions were resolved and termination actions were processed. Such actions were
performed by employees at one of SSA’s seven processing centers (PC).

SCOPE AND METHODOLOGY

Based on SSA’s Master Beneficiary Record (MBR), we obtained a data extract of all
young spouses and surviving spouses who did not have a child in-care under age 16 or
a disabled child in-care age 16 or over. Our population consisted of 392 young spouses
and surviving spouses in current pay status as of August 1999.3 These spouses and
surviving spouses were under age 62 and 60, respectively. However, according to the
MBR, they did not have a child of the worker in their care either under age 16 or
disabled.

To accomplish our objective, we:

     •	 reviewed the applicable sections of the Act and SSA’s Program Operations
        Manual System;

     •	 conducted interviews with employees from the Western and Northeastern
        Program Service Centers (PSC) and SSA’s Headquarters, including the Office
        of Systems Requirements and Office of Disability and International Operations
        (ODIO); 4

     •	 extracted a population of 392 young spouses and surviving spouses in current
        pay status who, according to the MBR, did not have a child in-care under
        age 16 or a disabled child in-care age 16 or over;

     •	 obtained queries from SSA’s MBR, Payment History Update System, and
        Recovery of Overpayments, Accounting, and Reporting system; and

     •	 reviewed the termination actions taken by SSA’s seven PCs (Northeastern PSC,
        Mid-Atlantic PSC, Southeastern PSC, Great Lakes PSC, Western PSC,
        Mid-America PSC, and ODIO).

As part of our audit, we determined whether SSA had terminated benefit payments in a
timely manner to young spouses and surviving spouses when their last nondisabled
child reached age 16. We monitored the status of the 392 cases in our population to
ensure that termination actions were taken by SSA. Where necessary, we referred
cases to the PCs for development.

3
  The original data extract contained 393 young spouses and surviving spouses in current pay status.
To validate the reliability of the data, we obtained queries from SSA’s beneficiary records and determined
that one of these cases was actually in suspended pay status. As a result, we eliminated this case from
our population and reviewed a total of 392 cases during the audit.
4
    Renamed as the Office of Central Operations.


Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)                    2
In accordance with the Federal Managers’ Financial Integrity Act and related Office of
Management and Budget (OMB) guidance,5 Brown and Company performed tests of
SSA’s internal controls over the OASDI initial claims and postentitlement systems.
These tests included the MBR which was used to extract data for this review. The tests
performed by Brown and Company did not disclose any material weaknesses in the
MBR. During our audit, we relied on the tests performed by Brown and Company. We
also validated the reliability of the extracted data. In addition, we found no evidence to
support the need for additional tests of the reliability of computer-based data.

We performed audit work in Baltimore, Maryland, and Richmond, California, between
August 1999 and August 2000. The entity audited was the Office of Program Benefits
within the Office of the Deputy Commissioner for Disability and Income Security
Programs. We conducted our audit in accordance with generally accepted government
auditing standards.




5
  OMB Circular A-123, Internal Control Systems; OMB Circular A-127, Financial Management Systems;
and OMB Circular A-130, Management of Federal Information Resources.


Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)               3
                                                          Results of Review
Our audit disclosed that, as of August 1999, 357 (91.1 percent) in our population of 392
young spouses and surviving spouses did not have a child in-care under age 16 or a
disabled child in-care age 16 or over. These individuals were ineligible for Social
Security benefits under the Act. We determined that SSA had improperly paid bene fits
totaling $406,194 to these individuals. The remaining 35 individuals (8.9 percent)
represented young spouses and surviving spouses who should not have been included
in our population because their beneficiary status had been misclassified. These
individuals were entitled to benefits because they were disabled, had a child in-care, or
reached age 60 (aged widow). For the 392 young spouses and surviving spouses in
our population, the results of our audit are summarized below.



                      Young Spouses and Surviving Spouses Reviewed

                      400
                      350

                      300
    Number of Cases




                      250         357
                      200
                      150

                      100                             26              8            1
                       50
                        0
                            Without Child In   Disabled     With Child In   Aged Widow
                                 Care                           Care




INCORRECT PAYMENTS TO YOUNG SPOUSES AND SURVIVING
SPOUSES

     357 Individuals        We found 357 young spouses and surviving spouses
   Received $406,194        received $406,194 in Social Security benefits to which they
    in Overpayments         were not entitled. This occurred because SSA had not
                            programmed its automated system to terminate benefits for
these individuals, and PC employees did not manually process the termination actions
in a timely manner. As of August 2000, we determined 147 individuals received
$292,125 in overpayments which should have been recovered by SSA. These cases


Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)       4
were referred to SSA for corrective action. The remaining 210 individuals received
$114,069 in overpayments which should have been offset against underpayments due
other individuals in the same family. The following chart provides a breakdown of the
total overpayments questioned by our audit.



    Overpayments to Young Spouses and Surviving Spouses

                    $300,000

                    $250,000
    Total Dollars




                    $200,000   $292,125                             Overpayments Subject
                                                                    To Recovery

                    $150,000                                        Overpayments Offset
                                                                    Against Underpayments
                    $100,000

                                          $114,069
                    $50,000

                          $0




Delays in Manual Processing of Termination Actions

SSA relies on its automated system to identify and terminate benefit payments to
young spouses and surviving spouses without a child in-care under age 16 or a
disabled child in-care age 16 or over. In most cases, these termination actions are
processed automatically. However, for complex cases, SSA’s automated system is not
programmed to process the termination actions. These cases include spouses and
surviving spouses who receive benefits on the earnings record of one worker and
children who receive benefits on the earnings record of another worker, and spouses
and surviving spouses who receive worker’s compensation benefits.

For example, when spouses become disabled because of work-related injuries, they
often receive worker’s compensation benefits. Accordingly, the amount of disability
benefits paid to the spouse and his or her dependents may be reduced by the amount
of worker’s compensation benefits. Such cases are complex because terminating
benefits for one family member may affect the benefits payable to other family
members. As a result, SSA’s automated system generates an exception and neither
terminates nor recalculates benefit payments in these instances.




Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)       5
     Amount of Time to        These exceptions require PC employees to manually
     Terminate Benefits       process termination actions and recalculate benefit
    Averaged 4.7 Months       payments. However, we found that PC employees did not
                              always review the exceptions and take prompt corrective
action. Because of other duties, they placed the exceptions into their backlogged
workloads to be processed at a later date. For the 357 young spouses and surviving
spouses in our population who did not have a child in-care, the amount of time required
to terminate their benefits averaged 4.7 months. As depicted in the chart below, the
actual time required to process the exceptions ranged from 1 to 31 months. Since
these individuals remained in current pay status during this period, they continued to
receive benefits to which they were not entitled until the termination actions were
processed.



                                  Number of Months to Terminate Benefits
                         90
                         80
                         70
       Number of Cases




                         60
                         50

                         40
                         30
                         20
                         10
                          0
                              1   2   3   4   5   6   7   8   9   10 11 12 13 14 15 16 17 18 19 21 24 31
                                                              Number of Months



According to SSA employees, 6 the primary workloads for the PCs consisted of
(1) providing service to the public through SSA’s 800-number, (2) processing initial
awards for Social Security benefits, (3) assisting with cases under review by
administrative law judges, (4) suspending and reinstating benefits to prisoners, and
(5) disbursing fees to attorneys who represent claimants in legal proceedings. All other
workloads, including resolving alerts and exceptions generated by SSA’s automated
system, are processed as time permits.




6
    Staff members from ODIO and Western PSC.


Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)                      6
                            We determined 201 of the 357 overpayments
     About One-Half
    of Overpayments         (56.3 percent) occurred at ODIO, of which 170 cases
                            involved overpayments that should have been offset
    Occurred at ODIO
                            against underpayments due other individuals in the
same family. Although workload backlogs and staff reductions contributed to these
overpayments, ODIO is responsible for processing claims under the Disability Insurance
program, which includes a disproportionate number of complex cases involving worker’s
compensation benefits. The remaining 156 overpayments (43.7 percent) occurred at
the 6 PSCs, of which 116 cases involved overpayments that should have been
recovered by SSA. These error rates are illustrated in the following chart.



            Number of Overpayments by Processing Center

    Office of Disability                           Mid-Atlantic PSC
    and International                                   7.8%
        Operations                                                     Northeastern PSC
          56.3%                                                             10.1%


                                                                                Western PSC
                                                                                   6.2%




                                                                             Great Lakes PSC
                                                                                   9.0%
                                                              Southeastern PSC
                                            Mid-America PSC         8.4%
                                                 2.2%




SSA’s Automated System Could Be Improved

In March 2000, SSA informed us that it is currently in the process of redesigning its
automated system. Although SSA’s automated system identifies young spouses and
surviving spouses without a child in-care under age 16 or a disabled child in-care
age 16 or over, it is not programmed to terminate benefits to all of these individuals.
The automated system is programmed to generate exceptions, which allow the young
spouses and surviving spouses to remain in current pay status until the exceptions are
subsequently resolved and termination actions are manually processed.

We believe that SSA should not rely on manual processing by PC employees because
there may be significant delays before the exceptions are resolved and benefits are
terminated. Furthermore, if the exceptions are inadvertently misplaced or discarded,
there is a risk that the termination actions may not be processed at all. To prevent
future occurrences of similar problems, we believe the termination actions should be


Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)          7
automated and automatic when the last nondisabled child reaches age 16. Such a
system should improve the integrity of the program and deter the opportunity for fraud,
waste, and abuse.

Therefore, to reduce the potential for overpayments, we recommend that SSA modify
its automated system to terminate benefits to young spouses and surviving spouses
without a child in-care under age 16 or a disabled child in-care age 16 or over. After
benefits have been terminated, the automated system should generate alerts for
PC employees to review complex cases, recalculate benefit amounts, and adjust
payments due other individuals in the same family, if necessary.

In addition, we recognize that delays in processing these alerts and exceptions
may result in underpayments to other family members who are eligible for benefits.
Consequently, to reduce the potential for underpayments, we recommend that SSA
evaluate the feasibility of automating benefit increases for other individuals in the same
family when the benefits for young spouses and surviving spouses without a child
in-care are terminated.




Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)        8
                                           Conclusions and
                                          Recommendations
Our audit disclosed that, as of August 1999, 357 (91.1 percent) in our population of 392
young spouses and surviving spouses did not have a child in-care under age 16 or a
disabled child in-care age 16 or over. This occurred because SSA had not programmed
its automated system to terminate benefits for these individuals, and PC employees did
not manually process the termination actions in a timely manner. As of August 2000,
we determined 147 individuals received $292,125 in overpayments that should have
been recovered by SSA. These cases were referred to SSA for corrective action. The
remaining 210 individuals received $114,069 in overpayments which should have been
offset against underpayments due other individuals in the same family.

SSA informed us that it is currently in the process of redesigning its automated system.
Although SSA’s automated system identifies young spouses and surviving spouses
without a child in-care under age 16 or a disabled child in-care age 16 or over, it is not
programmed to terminate benefits to all of these individuals. Because of shifting
workload priorities, SSA should not rely on PC employees to manually process
termination actions in a timely manner. Such actions should be processed by SSA’s
automated system, thereby reducing the amount of overpayments to ineligible
beneficiaries. Therefore, we recommend that SSA:

1.	 Modify its automated system to terminate benefits to young spouses and surviving
    spouses without a child in-care under age 16 or a disabled child in-care age 16 or
    over.

2. Generate alerts for PC employees to review complex cases, recalculate benefit
   amounts, and adjust payments due other individuals in the same family, if
   necessary.

3.	 Evaluate the feasibility of automating benefit increases for other individuals in the
    same family when the benefits for young spouses and surviving spouses without a
    child in-care are terminated.

4.	 For the 147 cases identified by our audit, take corrective action to ensure that
    overpayments are established and collection activities are initiated.

AGENCY COMMENTS

In its response, SSA generally agreed with our recommendations. SSA agreed that
benefits should be terminated timely for all young spouses and surviving spouses
without a child in-care either under age 16 or disabled and age 16 or over. SSA stated
that release 3 of title II Redesign will replace its existing programs for processing these


Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)         9
cases and address the efficiencies cited in our report. Release 3 is scheduled for
implementation by the end of calendar year 2002. SSA also stated that it is not
cost-effective to redirect resources from title II Redesign to modify its existing programs.
We agree and encourage SSA to expedite its implementation of title II Redesign to the
extent possible.

In addition, SSA stated that its Office of Operations had reviewed the 147 cases
identified by our audit and taken corrective action to ensure that overpayments were
established and collection activities were initiated. The full text of SSA’s comments is
included in AppendixA.

OIG RESPONSE

SSA’s planned actions adequately address all of our recommendations.




Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)      10
                                     Appendices





Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)
                                                                        Appendix A


Agency Comments





Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)
Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, “PAYMENTS TO
YOUNG SPOUSES AND SURVIVING SPOUSES WITHOUT CHILD IN-CARE”
A-09-00-10002


We appreciate the opportunity to comment on the draft report. Following are our comments on
the recommendations.

OIG Recommendation 1-3

•	 Modify its automated system to terminate benefits to young spouses and surviving spouses
   without a child in-care under age 16 or a disabled child in-care age 16 or over.

•	 Generate alerts for PC employees to review complex cases, recalculate benefit amounts, and
   adjust payments due other individuals in the same family, if necessary.

•	 Evaluate the feasibility of automating benefit increases for other individuals in the same
   family when the benefits for young spouses and surviving spouses without a child in-care are
   terminated.

SSA Comment to Recommendations 1- 3

We agree that benefits should terminate timely for all young and surviving spouses without a
child in-care either under age 16 or disabled and age 16 or over. As indicated in the draft report,
95 percent of these cases are terminated timely by an automated system (TASTE). For the
remaining 5 percent of cases, complex case characteristics, such as workers' compensation, dual
entitlement alien taxation, prevent the automated benefit termination and adjustment to
remaining auxiliaries. Cases that except from automated processing are sent to the Program
Service Centers for manual processing. These cases are screened as they come in and simpler
cases are worked first. More complex cases are processed in the order they are received, after
priority workloads, e.g., initial awards.

SSA has long recognized that software advances can process many currently excepted case
characteristics. For this reason, the Agency has pursued and continues to pursue redesign of its
title II systems. Effective with title II redesign release 3, which will subsume current TASTE
processes and address other efficiencies discussed in the OIG report, the TASTE program will be
retired. Consequently, we do not believe it is cost-effective to redirect resources from title II
redesign to make major changes in TASTE and the other processes that would be required to
timely terminate the small percentage of cases now producing exceptions. Release 3 of title II
redesign is expected to be implemented late in calendar year 2002.




Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)
                                                                                                    2


OIG Recommendation 4

For the 147 cases identified by our audit, take corrective action to ensure that overpayments are
established and collection activities are initiated.

SSA Comment

On February 22, 2001, the Office of Operations completed the review of the 147 cases identified
by OIG. Corrective action has been taken to ensure that overpayments have been established and
that collection activities have been initiated on all of the cases.




Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)
                                                                        Appendix B


OIG Contacts and Staff Acknowledgments
OIG Contacts

   William Fernandez, Director, Program Benefits Audit Division, (510) 970-1739

   Jack H. Trudel, Deputy Director, (510) 970-1733

Acknowledgments

In addition to those named above:

   Jimmie R. Harris, Senior Auditor

   Cheryl Robinson, Writer-Editor, Policy, Planning and Technical Services


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-09-00-10002.




Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002)
